                         VALIDATION OF DRG 14

                  Specific Cerebrovascular Disorders

                  Except Transient Ischemic Attacks





RICHARD P. KUSSEROW

INSPECTOR GENERAL
                                      JANUARY 1988

OAI-09-86-00052
                      EXECUTIVE SUMRY

PURPOSE : The purpose of this inspection was to conduct a

review of hospital discharge claims paid under Diagnosis

Related Group (DRG) 14 , Specific Cerebrovascular Disorders

Except Transient Ischemic Attacks.

BACKGROUND   The Office of Inspector General (OIG) analyzed all
DRGs to determine the potential for erroneous payment based on
incorrect or manipulative coding.  Three DRGs , including
DRG 14 , were selected for review. This report deals only with
the findings related to DRG 14. A sample of 10 hospitals in

Region IX was selected for the inspection.


MAJOR FINDINGS    Over 15 percent of the cases reviewed were
erroneously assigned to DRG  14.  This resulted in $108 353
in net overpayments to the 10 hospitals reviewed. The
proj ected net overpayment for all hospitals in the San
Francisco region is $5 231  871. If  these findings are
representative of the nation , the national impact would be

approximately $31. 5 million annually.

The primary causes of the erroneous DRG assignments and
overpayments to the hospitals include:
   physician failure to correctly identify the principal

   diagnosis or to state it with sufficient specificity,

   resul ting in vague diagnoses which are subj ect to incorrect
   coding;
   insufficient documentation in the medical record to

   substantiate clinical diagnoses;

   variable coding practices prompting improper coding of the

   principal diagnosis by hospital staff; and

   inaccurate diagnosis for stroke symptoms of some elderly
   patients with multiple disabilities , resulting in faulty
   principal diagnoses and frequent misassignment of the DRG.

RECOMMENDATIONS:

  The Health Care Financing Administration (HCFA) should

  advise all peer review organizations (PROs) of the

  vulnerabili ty of DRG 14 and suggest focused reviews of

  DRG 14 cases at hospitals with high numbers of such claims.
The HCFA Response   By agreeing that DRG 14 is vulnerable

and by emphasizing the PROs ' 20 percent random audit
indicated its acceptance of this recommendation.
     , HCFA



The HCFA should instruct the PROs to initiate intensified

educational efforts toward improving physician designation

of principal diagnoses.

The HCFA Response   The HCFA agreed with this

recommendation. The OIG  will distribute this report to the
PROs.

The HCFA should provide sufficient resources and monitoring

of fiscal intermediaries to enhance their capability to

provide complete claims data on request in a timely 

                                                     manner.
The HCFA Response   According to HCFA , sufficient funding is

not available to restructure fiscal intermediary  data in a
form more useful for OIG studies such as DRG
will work with HCFA to resolve these problems.14.  The OIG
                      TABLE OF CONTENTS



                                                        Page
EXECUTIVE SUMARY
INTRODUCTION

    BACKGROUND
    PURPOSE
    DRG 14 CODING PROBLEMS

    METHODOLOGY
    WHAT IS A STROKE? 

FINDINGS

    SIGNIFICANT OVERPAYMENTS RESULTED FROM ERRORS

    IN DRG ASSIGNMENT

    MOST ERRORS INVOLVED INCORRECT OR NONSPECIFIC

    IDENTIFICATION OF THE PRINCIPAL DIAGNOSIS

    CODERS INCORRECTLY TRANSLATED PHYSICIANS'
    NARRATIVE IN 11 PERCENT OF ERRORS

    THREE ADMISSIONS WERE UNNECESSARY

RECOMMENDATIONS

APPENDICES

   APPENDIX A:    CHARACTERISTICS OF SAMPLE HOSPITALS
   APPENDIX B:    METHOD FOR PROJECTING COST AVOIDANCE
   APPENDIX C:    ANALYSIS OF DRG 14 CLAIMS BY HOSPITAL AND CASE
   APPENDIX D:    TYPES OF ERRORS WHICH AFFECT DRG ASSIGNMENT
                           INTRODUCTION


  BACKGROUND

 Under section 1886( d) of the Social Security Act
 the Social Security Amendments of 1983 (P.
       , enacted by

 prospecti ve payment system (PPS) for Medicare paymenta
of
                                            L. 98-21),
 inpatient hospital services was established effective with

 hospi tal cost reporting periods beginning on or after

 October 1 , 1983. Under this system
                                     , Medicare payment is

 made at a predetermined , specific rate for each discharge.

 All discharges are classified according to a list of

 diagnosis related groups (DRGs).

 The DRGs are based on a coding classification using the

 International Classification of Diseases

 Clinical Modification (ICD-9-CM). This , 9th Revision

 system was designed for the collection ofclassification

                                            morbidity and

 mortali ty statistics and not for reimbursement purposes.

 Incorrect application of the ICD-9-CM codes can lead to
 incorrect payments to hospitals.
                                    The Office of Inspector
 General (OIG) therefore has been concerned  with the validity
 of payments to hospitals under PPS.
Beginning in late 1984 , the OIG undertook studies on the

validi ty of reimbursement under
ini
                                   PPS. All
    tially to determine their potential for DRGs were analyzed
                                             erroneous

payment. Based on the results , three DRG categories were

selected for review because they were thought to be

particularly vulnerable to miscoding and other errors by the

provider communi ty--DRG 88 (Chronic Obstructive Pulmonary

Disease), DRG 82 (Respiratory
                               Neoplasms), and DRG 14

(Specific Cerebrovascular Disorders Except Transient

Ischemic Attacks). Together , these three DRG categories

consti tute approximately 6 percent of total PPS reimbursements.

Reports on DRG 88 and DRG 82 have already been 

                                                  issued.
PURPOSE

This report focuses on DRG 14
special problems in diagnosing, and
                                emphasizing some of
                                    coding stroke   the

                                                  patients

under PPS. In 1984 , DRG 14 was the fourth most frequently

occurring DRG and ranked third in total
                                           reimbursement.
DRG 14 CODING PROBLEMS

Diagnosis Is Of ten Difficult


Diagnosing stroke patients is often difficult

frail                                        , especially

     , elderly patients with a variety of chronic
                                                  conditions.
The conditions grouped into DRG 14 are closely related to

DRGs 15 , 16   , and 17.
                       Faulty diagnosis or misunderstanding on
the part of coders , intentional or otherwise , can lead to
improper assignment and reimbursement of the DRG.
It is important to emphasize that the OIG is not second-
guessing physician diagnoses when reviewing medical records
to validate that the case has been assigned to an appropriate
DRG. Rather , the purpose of the validation is to assure that
the medical record contains adequate documentation to support
the principal diagnosis , any co- morbidities and complications

noted , and the sequencing of these. In pilot studies of DRG 14
conducted in 1984 , the most common reason for misassignment was
failure to provide such documentation. This inspection
confirmed those preliminary findings.
Hospi tals May Manipulate To Bring About DRG Creep


The term " DRGcreep " is widely used by the provider community
to describe the practice of diagnosing and coding conditions

other than those justified by the medical record in order to

obtain higher paying DRGs. It is , therefore , a concern of the

OIG.
The DRG 14 is particularly vulnerable to creep activity because
of the combined effect of the fOllowing issues:
  High Weight    The DRG 14 has a relative weight of 1. 3527.
  The average relative weight for all medical DRGs is .
  The relative weight multiplied by the blended payment 9404.
  amount specific to each hospital results in the
  reimbursement amount. Therefore , the higher the relative
  weight , the more reimbursement the provider receives.
  Because of this , there are incentives for hospitals and
  physicians to manipulate principal diagnoses and place
  claims in the DRG 14 category which properly belong in

  other diagnosis related groups.

  Documentation    The Uniform Hospital Discharge Data Set
  (UHDDS) defines principal diagnosis as " the condition
  established after study to be chiefly responsible for
  occasioning the admission of the patient to the hospital for
  care. " The principal diagnosis determines the DRG

  assignment , and the physician is responsible for accurately
  attesting to it. Physicians , however , do not consistently
  apply the UHDDS definition of principal diagnosis in their
  documentation practices.

  Sequencing Inconsistencies    Sequencing is the order in

  which the discharge diagnoses are listed and depends

  upon the condition that was chiefly responsible for

  occasioning the patient' s admission to the hospital.

   Since not all coders will interpret and code the same

   information the same way, DRG 14 is vulnerable.

The combination of higher than average relative weight , lack

of consistency by physicians in their documentation , and

diverse interpretations of diagnostic information by coders

produces a climate conducive to DRG creep.
Basic Coding Errors Are Common

At the time this inspection was initiated , little definitive

work had been published regarding ICD-9-CM coding   errors.
studies by the Institute of Medicine in 1977 and 1980

                                                            Two
however , found error rates of over 30 percent among
hospi tal-coded data. Unfortunately, even though the provider
communi ty acknowledges a high error rate in coding, until

recently there were few definitive studies to determine how

coding errors translate into DRG errors.
METHODOLOGY

To verify that cases were properly coded and payments were
correct , medical records were reviewed for a sample of medical
discharges which had been reimbursed as DRG 14. A sample of 10
hospitals was identified from all PPS hospitals in Region IX.
Since the number of DRG 14 discharges in the sample hospitals
varied from 0 to 188 , OIG staff reviewed all cases assigned to
DRG 14 for discharges that occurred between October 1 , 1983 and

September 1 , 1984. Some of the sample hospitals were under PPS
for only a few months during this period , and one had no PPS
cases. A total of 355 records and claims were reviewed.
(Appendix A lists each hospital showing the number of beds

PPS start date , and size of sample.   It is not known how many
of these cases were reviewed by peer review organizations
(PROs) or what action the PROs may have   taken. The California
PRO was not designated until after the period covered by this

inspection.
The 10 hospitals were selected from a computer- generated
list of random numbers. Stratification of the hospitals was
based on bed size , as follows:
              less than 100 beds   - 2 hospitals
              101 to 299 beds      - 3 hospitals
              300 or more beds     - 5 hospitals
The inspection focused on a review of the complete medical
record for each DRG 14 admission included in the   sample. The
fiscal intermediaries identified the DRG 14 claims and provided
payment information. The DRG 14 review procedure was tested in

a pilot study conducted in four Region IX hospitals during

FY 1984.
Region IX contracted with the American Medical Records
Association (AMRA) and the California Medical Records
Association (CMRA) for the services of medical records
specialists to review the DRG 14   cases.These groups are
professional organizations of registered record
administrators (RRAs) and accredited record technicians (ARTs)
who manage medical record functions in health care
                                                       facilities.
The AMRA is also the credentialing body for medical record
professionals. All  ICD-9-CM code assignments made by the
reviewers were verified by an RRA on the OIG
                                               staff.All cases
in which the DRG assignment was changed or the hospital
admission was questioned were reviewed by OIG staff
                                                          physicians.
The following steps were carried out in the DRG validation

process:
   Examine physician attestation sheets to determine
   principal and other diagnoses and procedures reported by
   the physician.

   Review medical records to determine if the information

   attested to by the physician is   substantiated.

  Code the diagnoses and procedures.

  Abstract data from medical records onto the 

                                                 OIG' s   worksheet.
  Compare codes assigned by OIG reviewer to the codes on the
  medical record and    bill.
  Identify    medical records in which discrepancies have
  occurred.
  Photocopy   the medical record for those cases which could
  resul t in a change of DRG assignment or denial of the
  admission.
  Refer records with errors in DRG assignment or questionable
  admission to a physician reviewer.
                    WHT IS A STROKE?
According to several neurologists and other experts who

were interviewed by the OIG inspection team , a stroke

or cerebrovascular accident (CVA), occurs when there is

a blockage or restriction of normal blood supply to the

nerve cells of the brain. This blockage may result in

injury to the nervous system and thus affect body

functioning, as manifested by paralysis, loss of

sensation , visual or speech problems, or
cognitive/emotional disturbances. Strokes are commonly
caused by either (1) a blood clot f9rmed in one of the
arteries of the brain (cerebral thrombosis), ( 2) a clot
formed in the heart or in a blood vessel of the neck
which travels to the brain and obstructs the normal flow
of blood (cerebral embolism), or (3) bleeding through
weak spots or aneurysms in a cerebral blood vessel

(cerebral hemorrhage).


Physicians emphasized the difficul ty involved in
diagnosing stroke patients. Frequently, other unrelated
conditions , such as hypoglycemia , benign tumors
subdural hematoma , and epilepsy, can cause symptoms that
resemble strokes. For other patients , particularly
elderly individuals with complicating diseases , precise
diagnosis of a stroke is not an easy task.
The CVA is classified clinically according to the
duration of symptoms. If the symptoms of a stroke are
completely resolved wi thin 24 hours , the condition is
called a transient ischemic attack  (TIA). If   the stroke
lasts longer than 24 hours , it is a complete stroke , or
CVA. A CVA may be maj or or minor according to the
degree of neurological impairment.
Treatment given during, or immediately after , a major
stroke is designed to monitor the patient and prevent
further complications. This includes steps to prevent
further neurological or coronary damage. Once the acute
phase has passed , the patient begins a program of
rehabilitation and supportive care.
Depending on the location and type , TIAs are treated
with drug therapy or vascular  surgery.  Treatment for a
TIA can be more aggressive than for an actual CVA since
the objective is to prevent a CVA from occurring.
                                  FINDINGS


 SIGNIFICANT OVERPAYMENTS RESULTED FROM ERRORS IN DRG ASSIGNMENT

 Of the 355 records   reviewed , 55 were found to be assigned

 erroneously to DRG     , and 3 represented inappropriate

 admissions. These    resul ts are summarized in the fOllowing

 table:

                                DRG 14 CLAIMS

         Percent of all cases in error

                                                        15.
         Total overpayment for 10 hospitals

                                                     108 353
         proj ected overpayment , Region IX          231 871
         proj ected national overpayment*        $31 538 229
    *Appendix B shows the data used to calculate the cost

     avoidance proj ections .

Hospi tal payments are based upon the weight of the DRG

mul tiplied by the hospital' s blended rate and adjusted for the

beneficiary s deductible and other variables.
each correct DRG was subtracted from the weight The  weight
                                                  of DRG 14 of
                                                            and

the result multiplied by the hospital'

at the amount overpaid.                 s blended rate to arrive


Most of the identified errors resulted in a lower weight being

assigned.  Coding changes which did not affect the DRG

assignment were not counted as errors and therefore are not

identified in this report.  An additional amount of $15
paid for three admissions determined not to be medically 425 was
necessary.  This amount was not counted , however
                                                  , in can
                                                       the total.
Details of the overpayment calculation for  each case      be

found in Appendix 

MOST ERRORS INVOLVED INCORRECT OR NONSPECIFIC IDENTIFICATION OF

THE PRINCIPAL DIAGNOSIS

In 44 (80 percent) of the erroneous cases

                                         , the DRG physician
a principal diagnosis attested to by the attending was based on

and coded wi thin the medical record. In each of these cases
the principal diagnosis shown on the attestation form did not
match the correct principal diagnosis as substantiated by the
documentation in the medical     record.
                                      Appendix D lists the
types of errors which affect DRG assignment.
 The first step in the assignment of a case to a particular DRG

 is the designation by the attending physician of the principal

 diagnosis , secondary diagnoses , and procedures performed.
 the physician is unaware of the UHDDS definition of principal

 diagnosis or is inconsistent in applying it , erroneous DRG

 assignments are inevitable.

 The OIG inspection revealed that sometimes a patient may be
given a tentative diagnosis of a TIA and may be discharged
wi thin 2 or 3 days. However , the T IA may extend and become
a CVA. Often , the patient is then readmitted with a CVA as the
principal diagnosis. Patients also may be treated differently
depending on their age and general condition. Older , more
debili tated patients often exhibit CVA   symptoms and are given a
tentative diagnosis of CVA. Such patients are not always
treated aggressively, which might paradoxically reveal a less
severe condition. Thus , they are discharged with a principal
diagnosis " after study " of CVA when , in fact , no real study was
done , and the patients actually had TIAs or some different
condi tion. Conversely, younger patients with tentative initial

diagnoses of TIA are usually given quite aggressive treatment.
During the course of such treatment , the diagnosis may be

changed from TIA to a more serious CVA condition. This does

not mean that all debilitated patients should be given

extensive testing, but the failure to do so sometimes leads to

improper diagnosis.
CODERS INCORRECTLY TRASLATED PHYSICIANS' NARRATIVE IN
11 PERCENT OF ERRORS

In six (10. 9 percent) of the miscoded cases reviewed
selected the wrong codes to translate the physicians , coders
descriptions of the principal  diagnoses. In          ' narrative
                                              each of these
cases , the physician had correctly identified and attested to
the acute condition which necessitated admission. The
                                                         error
was made by the coder and was not identified in any subsequent
review done by the hospital. It was not wi thin the scope of
this inspection to determine whether or not the coding errors
were intentional.

THREE ADMISSIONS WERE UNECESSARY
In addition to errors in DRG assignments , three cases reviewed

by OIG physicians were found to lack sufficient documentation

to justify admission to the hospital. The total dollar amount

of unnecessary admissions was $15 425. However
                                                , this figure

has not been included in the calculation of total  error

amounts.
  The fOllowing charts summarize the findings in the sample

  hospi tals:




                        ERROR RATES AND OVERPAYMENT

             SAMPLE                  # UNNEC.
   HOSP.         SIZE       REASS.                             NET
                                      ADMISS.      ERROR   OVERPAYMENT

            185                                    15.       $ 13    334
                                                   14.               092
                                                  11.1               467
                                                  11.1              , 688
                                                  22.                154
                                                  18.                631
                                                  20.               581
                                                  21. 7             406
  Totals    355                                   15.       $108 353

                        REASONS FOR OVERPAYMENT


                                                         Percent
                                                Percent	 Of All
                                                          Cases
                                     Total       Errors Reviewed
Physician documentation

error; medical record does
                                                 80.       12.

not substantiate diagnoSis;
or recording of vague
diagnoses subj      ect
misinterpretation by
coding clerks
Coding error resulting in
miscoding of principal                           10.        1. 7
diagnosis
Other types of coding
errors
 Total   Coding Errors	
                                                100.       15.
                       RECOMMENDATIONS


RECOMMENDATION #l--INITIATE AN EDUCATIONAL PROGRAM FOR

                   PHYSICIANS
FINDING: Physicians often   failto correctly identify the
principal diagnosis or state it wi th sufficient specificity.
This results in vague diagnoses which are subj ect to incorrect
coding.
RECOMMENDATION: The Health Care Financing Administration

should initiate an educational program to improve physician

documentation and designation of principal diagnoses with an

emphasis on (1) requiring the UHDDS definition as opposed to

final diagnosis , discharge diagnosis , or primary diagnosis;

(2) the importance of specificity in identifying the principal

diagnosis; and (3) the proper sequencing of the principal and

secondary diagnoses.
This program should incorporate , at a minimum , the following

elements:
   The PRO contact with individual physicians and medical

   staff.
  utilization of professional and specialty organizations

  of physicians in disseminating information through

  national meetings , seminars , and publications.

  The HCFA and/or PRO contact with hospital and medical record

  administrators to inform them of their responsibilities

  whenever the physician s designation of principal diagnosis

  is in error according to UHDDS guidelines. In these
  si tuations , coders should consult with the attending
  physician , present UHDDS guidelines , and request that he or
  she sign an ' amendedattestation.   Interaction between the
  medical record department and the physician has been a long-
  standing and necessary process which should not change under
  PPS. Likewise , coders should review the entire medical
  record to identify the principal diagnosis , secondary
  diagnoses and procedures performed rather than simply
  assigning codes to the physician s narrative diagnoses.
  Al though the attending physician is ultimately responsible
  for attesting to the principal diagnosis , secondary

  diagnoses , and procedures performed , it is in the best

  interest of the hospital to bring errors to the physician
  attention , given the fact that the hospital may be liable
  and the physician may be subject to fine , imprisonment
  civil penalty under applicable Federal laws.            , or
 THE HCFA RESPONSE: The HCFA agreed with this recommendation.

 The OIG will distribute this report to the 

                                            PROs.

 RECOMMENDATION #2--ADVISE THE PROs OF THE VULNERABILITY OF

                    DRG 14 AND REQUIRE FOCUSED REVIEWS

 FINDING: Regarding the identification of patterns of
 this inspection showed that such patterns are clearly abuse

 evident when many cases in a single DRG are
                                             reviewed.

 Patterns may not be equally obvious in PRO reviews of

 randomly selected cases of all DRGs.

RECOMMENDATION: The HCFA should advise the PROs of the

vulnerabili ty of DRG 14 and should require PROs to conduct

focused reviews in hospitals with higher than average numbers
of cases grouped to DRG
identified                14. When a potentially abusive case is
           , a number of other cases in the same DRG should be
reviewed.
THE HCFA RESPONSE: By agreeing that DRG 14 is vulnerable

and by emphasizing the PROs ' 20 percent random audit
indicated its acceptance of this recommendation.
     , HCFA



RECOMMENDATION #3--INCREASE MONITORING OF FISCAL INTERMEDIARY

                      PERFORMCE
FINDING: Fiscal intermediary data   were incomplete and
turnaround time wasslow.
RECOMMENDATION: The HCFA should provide sufficient

and adequate monitoring of fiscal intermediaries to resources
their capability to provide complete claims data in   enhance
manner.                                               a timely
THE HCFA RESPONSE: According to HCFA
                                     , sufficientdata
not available to restructure fiscal intermediary  funding
                                                      in ais
more useful  form.
this problem.

                   The OIG will work with HCFA to resolve
                                                           APPENDIX A


            CHARACTERISTICS OF SAMPLE HOSPITALS

     DRG 14--SPECIFIC CEREBROVASCULAR

                                       DISEASE EXCEPT TIA


           BED    PPS START        DATE INSPECTION
HOSPITAL   SIZE     DATE                                     SAMPLE
                                           BEGUN              SIZE
           300    June 1984        April 24        1985
           300    October 1983     April        1985          185
           693    July 1984        April        1985
           209    June 1984        April       1985
                  July 1984        May 24     1985
                  January 1984     April      1985
           116    January 1984     April 20     1985
           409    September 1984
           343    July 1984        February 4       1985
           140    April 1984       February 5       1985
                                                           APPENDIX B


               METHOD FOR PROJECTING COST AVOIDANCE


The fOllowing table presents the data used to calculate the

cost avoidance proj ections:
                                                      Errors per

                                           Amount     Record
strata                     # of     # of   Errors     Reviewed
                 Hosp.   Records   Errors (Dollars)    (Dollars)
100 Beds

 or less                                       154         462

101-299 Beds	                                  688         316

                                               631         423

                                               406         105

300+ Beds                                      334         290

                          185                  092         325

                                               467         163

                                               581         129
Totals (Unweighted)       355              108 353         305

            (Weighted)                                     246

The estimated cost avoidance , for the time period studied
is $5 231 871 with a 90 percent confidence interval of
    548 222 to $6 915 519. An estimated savings of
$31 538 229 would result from projecting the Region IX
resul ts to the Nation.  This figure has a 90 percent
confidence interval of $21 407 476 to $41 668       981.
                                                      The
average error rate , weighted for the number of records in
each hospital and adjusted for the stratification , for
coding wi thin this DRG is 13. 9 percent. The coefficient
of variation for these data is 19. 56 percent.
--------
---------------------------
         ,...
         ":..
         ..... ..:''')..    ---------------------
                             ---
                           ""'               ----" - ------------------------
                                                     -- ---'-'- ---' ----
                                                      .! . "                  --                       -j' -j'          :::!
                                                                                                                       $:,q.
                                                                                                                        $:.q,
                                                                                                                         :$:.'+ , .            $:, $:,
                                                                                                                                               :.:$:"+                          :$:




                                                                                                                                              APPENDIX C


                                          ANAL YSIS OF DRG 14 CLAIMS BY HOSPITAL AND CASE




               C;: SEOF( 1: G..                           OF.      :r    i ..           Jh:F( ..       EF.:F"    Or; Ac:-rur
 HOSP.          NO. DRG..                Df;'                v..   T.                   l1JT.                             P(4Y
                                                                                                                                                :1:\L..
                                                                                                                                                    C'
                                                                                                                                                        \' .I. ... ''i_
                                                                                                                                                                      r:' .l.
                                                                                                                                                                          ,"

                                                                                                                                                            P(:l\'                    D I F'   FERENCE


                                                          1 .      35;                                                     $4 , 183                            , 183
                                 14-                      1 . 3527'                                                                                                                                   ;:::0
                                                                 ",I:
                                                                  rw..
                                                                                                                               , 183                  :!A      , 1 EJ3
 HOSP.                                                                                                                         , 183                             18:;                                 $Cj
BLENDED
                                                          1 ..   3527                                                            183                           , 183
                                          1.t.:,          1 . 3527                                                            , 183
  RATE                                                    1 . 3527
                                                                                        8592 DENY

                                                                                                                                                                   657                   $1 , 526
                                                                                                                           $4 , 183                     , 183
                                                          1 . 3527                                                         $4 , 183
$3C)92. 33                                                       3527'                                                                                    183
                                                                                                                           $Q' 183                   "lLf 1.
                             14-                      1 . 35-
                                                      1 -:'-.4.. I                                                         $4 j 1S::;                ::t:1.        18.                            $C)
                                                      1 ..    3527
                                                                                                                                      1 f33                        183
                                                                                                                           $4 , 183                  'I:4          183
                                                              35:27                     6673                                    183              :f2 \ 063
                                                      1 . 3527                                                                                                                                 , 1 2()
                   1.4                                        ""1:'-',                                                        , 183              $:"'1. , 183                                     $: i)
                                                           . ''''w..:: ,/
                                                                                                                                 ) 183                             18:::                          J:(J
                            1.4                              3527 o. 4857                                                  =tA, 183              $:1
                                                                                                                                                              '1
                                                                                                                                                                   502
                                                      1 . 35::::7                                                                                                                               681
                                                                                                                              , 183                                183
                                                     i . 3527                                                                   183             $4 j 18:;
                                                                                                                                                                                                  =.:O

                                                     1 . 3527
                                                                                                                                                                                                 :,1:0
                                                                                                                           $4" 183                                 183                           $:0
                   1 '7
                                                     1 . 35'::7                                                        $:4       , 1.
               2()         .14                       1.., 3527"
                                                                                                                                                $L;.        'l :l 8                              :1:;)
               .. 1                                                                                                                i.           $4. ,/ l.E:3                                      ;::O
               ,.r;
                           :1.                       1 . 3527                                                                      18.          ::::4 , 18,
                                                     1. . 3527                                                             j 183
               t:..:'      1 .IT
                                                            3527                                                                                            " 1.                                 :fO
              ..LI                                                                                                           153                            , 1.i':3                             ::t()
                           1 4,                             35::7"                                                         , 183
              "'1:
                                                    1. .3527                                                                                   $:(. 'J        183
                                                                                                                       $LJ , 183                            , 183
              ":0                                   1 . 35::                                                           t:4 ,      18:::                     , 183                                $:0
                           1 Lj,
                   1 . 3527                                                          :$A         18::                      , 1.

                                                    1 . 3527                                                          $4" 183
                                                    1 . 3527
                                                                                                                                                      !!" is::;
             3c)                                                                                                             , 183             $!i          , 18:;
                                                    1 . 3527                                                               183                $4 , 183
                                                    1 . 3527                                                          $4 , 183
             ..1':
                                                           3527                                                                                  , 183                                          :$:0
                                                    1 .
                                                                                                                      $4 , 183                     183
             ':I
                                                    1 .    3527                                                      $4 , 183                 $4 , 183
                                                   1 . 3527                                                          $4 , 183
                                                   1 . 3527
                                                                                                                                                 , 183
                                                                                                                     $4 , 183                           , 183
                                                   1 .     3527                                                                  183          $4 , 183
                                                   1 . 3386                                                          $4 , 139
                                                   1 u 3527
                                                                                                                                                 , 139
                                                                                                                     $4 , 183                 $:4 183
                                                   1 . 3386 O. 6604                                                  $4 , 139
                                                   1 . 3527 O. 6673
                                                                                                                                                            042                            , 097
                                       123
                                                                                                                     $4, 183                  $2 , 063                                $2, 120
                                                   1 . 3527 1 . 136                                                  $4 , 183
                          14.                      1 . 3 j27
                                                                                                                                              $3 , 51. 3                                  $670
                                                                                                                            , 183             $4 I 183
                                                   1 ..   3527                                                       :':4     183             $it , 183
                                                   1. . 3527                        titJ 7::
                                                                                c) II
                                                                                                                            , 1 83
                                                                                                                     :$A                      $2 ,          ()1,                      $:2 ,    120
                          14-                      1 . 3386                                                          $4 , 139                 $:tl          139                                :$:0
                          14,                      1. 3527                                                           $L).        183          $4 I 1 E:;
                                                                                                                                                                                  'R"_"'__--­
                                                                                               TOTAL              $192       287 $178 I 953                                         . 3 , 334
      -------
      -- ------------
               .: /
                ...
                ...
                 ,.   ----- ------------ - ---------.--- ---- ---- - ....
                 "'..'-:_.    '. .';j.           .. ...   ":'. -..,
                                                    p .. ""'"    ..:...
                                                                    ::, /          ....        $:) ---
                                                                     ---- -.- -_. ---.--.--------.-
                                                                                               $(;
                                                                                              $(;        ...""'
                                                                                                         .*' -+'  ...
                                                                                                             -...':'
                                                                                                                  ''-..-
                                                                                                                 ""'             "'..,
                                                                                                                                  "" ..,      ""'.."""--
                                                                                                                                            -+'$''''...'',. /!
                                                                                                                                                     -..:;.
                                                                                                                                                    -;.
                                                                                                                                                    -;"":..       ....-.'-,......,.-..:..
                                                                                                                                                                               ,:..
                                                                                                                                                                               -:'    ,''.&
                                                                                                                                                                                     ';'-
                                                                                                                                                                                        '-;.
                                                                                                                                                                                          ...' ...   ...''",, "..      :;:)
                                                                                                                                                                                                                        ':!(',.
                                                                                                                                                                                                                      -+-
                                                                                                                                                                                                                       ",,




      REVIEW OF DRG 14 - REGION 


       HOSP. CASE            ORIS COFm.                            IG              COFIS:"               ACTUAL                                             ./ I S!:'"
                      ND.    DRS          DRG                  WT.                    . I.
                                                                                     W'"     EF\RO;',               F'Pj                                         F'''''
                                                                                                                                                                   f-:                                    I) I FF- EJ= E,.

                                   14,                1 .. 3527                                                                                           .r-&:-:
                                                                                                                                                          1".,
                                                      1 . .3527                                                     +1:
                                                                                                                                                                              (:o
                                                                                                                                                                                                                             :;:c
                                                                                                                                                        :$:5                 6'::
                                                      1 II 3527
       HOSP.                                                                                                                      621                  :$:5                  621
                                                      1.,,   3527"
      BLENDED                     1.4,                1.. 3527 I). 8979
                                                                                                                                 6" 1                                       w..
                                                                                                                                                                            of..


       RATE                                                                                                          621                                                                                   $ 1
11!                                                       3527
                                                      1 .. .
                                                                                                                $-=5 621                                    ::5             L,.'
                                  1 if
               111 3527                                                                                         $t: 6::
      4155.                                                                                                     :$=5 621
                                                      1 . 3527                                                                                                                                                              :$:0
                                  1.4
                                                                                                                :t5  621                               $5
                                                      1"3          ;27                                          :t5 621                                +'1:                i__
                                                                                                                                                                           w...
                                  1. 4.               1 . 3527                                                  $5   621                              :$:5
                    .. 1                              1 . 352.                                                  +-I:
                                                                                                                ;F'J            62                    :t5
                                  1 4,             1 ..      3527                                                                    I'
                                                                                                                                     ":.J
                                                                                                                                                                          6::


                                                                ../": I                                                         621                 :1::5                 t.i:':
                                                        .. 3                                                    ..-.t:
                                           13E: l 3527 ().. 9297
                                                                                                              ':I:­                                   t;5                                                               :;t:O
                                                                                                              :$:5                                    :1'                CJ/:,                            .:1
                                                                                                                                                                                                                     758
                   1t.                          1 II 35:' 1 . 102S:'                               -)i
                                                                                                               ::5 6:2                              .:1' Li
                                                                                                                                                                        5f;=3                                        ()3E
                   1?                        1.5 1. 35      c)" 6673                                               1., .-
                                                                                                                   L'";,
                               1.L            .=+ 1 0: 3527 c).. 9927                                         :t-           1..-
                                                                                                                                                    .;1:' .
                                                                                                                                                                                                                     848
                                                       3527
                                                                                                                            W..                     :t.
                                                                                                                                                             1'                                                      49t,
                                                  1 . .
                                                                                                              $5            621
                                                  1 " 3527                                                                  L":
                                                                                                                            W..
                                          425     1 n .     35.                  O. 681 2                                   621.
                              1.4                1 .. 3527"
                                                                                                                                                  =*:2                                                    $:2 -'0,
                              'J
                              .L "                             t;'"''-r
                                                                                                           :t5                                                       L...
                                                                                                                                                                     t.'                                              ::t
                                                 .i. '" '                                                   :J.t:_                                 :f;.r:::
                                                                                                           -f'             'l'                                                                                        .;1'
                                                 1 n 3527"                                                 :Jc:
                                                                                                          -t'
                                                                                                                                  ''I'i
                 1"1::-                                                                                                    w..                                                                                         ;t.
                                                 1 n :3527                                                :f:5                                    :tI:
                                                                                                                                                                                                                      -t-' '
                                                                                                                            :J..                 -f.                                                                  .:1:.
                             1.4                 1. .    3527                                             :;1'5            0"'                   :1:5               1, ­
                                                                                                                                                                    Le.
                                                                                                                                                                                                                      -1.

                             J.                  J. .. 35:::.                                                              l.
                -,c:.                                                                                                      '-1,
                                                 .t II         1":,                                                        6''''1                :fL"::
                                                             r:"""7                                                                             -f"                                                                    r:i)
                                                                                                             621
                3()                        24 1. ::;527                            7279                  :t5 621
                                                                                                                                                :1::5
                                                                                                                                                ,:1'
                                                                                                                                                                   l..

                                                                                                                                                                  C)2::;                                            596
                  'oJ.
                                                 1..    3527                                                 621
                                                 1 . 3527'                                               ::-0:                                                                                                       :$:0
                "T-:                                                                                                       6"'
                                                                                                                            ":J                                   62:l
                             1.4          2'-1-4 1. 3527 1\ 7729            i)
                                                                                                             621.                                                                                    ,:t..
                                                1 .3527                                                  $1: 6'".
                                                                                                                                               $3                                                                   409
                ""C-
                  I".
                                                    3527
                                                                                                              Lot                                                 621                                                $:0
                                                1 .
                                                                                                         $5       621                         $5                  621
                                                1 .3527                                                           621                         $t: 6,"1
                                           15 1. 3527 0. 6673                                iI'             \o , 621
                                                                                                          4. C-
                                                                                                                                                                  773
                                          131 1. 3527 0. 6051                                                                                                                                                       848
                                                                                                         $5       621                        $2
                                                1 .3527                                                  $5       621                        $5                   621
                                                                                                                                                                                                     $3


                                                1 .3527                                                  $5       621                       $5                    621
                                                1 .3527                                                  $5       621
                                           24 1. 3527 1). 7279                                                                              $5                                                                       :::0
                                                                                                                 621                                              025                                               596
                                                1 .3527                                                          621                        $5                   621
                                                1 .3527                                                          621                        ..c-                 621
                                                1 .3527                                                                                                          L"" 1

                                                                                                                                                                 w..:.
                                              1. . 3527                                                                                                          L"'
------------------- -------
           ..,-  '
              ..,";' \.'       --::,-/--
                          -:=....
                              ":'..":
                              .":",":,
                            ":'....
                        ...:;,,-,.             -- - ----------------- -------:$::--- - ----- --------
                                      ,-;/	 -()..  ,,":',...
                                                     "....
                                                       '''   '...
                                                              -.... . ..-=..
                                                               ..-;:..:'
                                                        ''''.:..
                                                       ''',            "' ..
                                                                      ,,;.                    $()
                                                                                              $:('
                                                                                              ().q.              ~~~
                                                                                                                """
                                                                                                                 ""'                  '-,.'''-''',:.
                                                                                                                  .;'-. -.---:',.,?.,\_           - j.-      .:!:. .' (;'y'
                                                                                                                                                            ""-
                                                                                                                                                             -;"-.      '''_
                                                                                                                                                                      '.:.




REVIEW OF DRS 14 	
                 - REGION                                     I X




 HOSP. CASE            ORIO CORF\.                    OF' I G                          COF;r=                  ACTlJAL
              NO.      DRG                                  vH.                           WT.         ERF:OR            F'P,Y
                                                                                                                                                          F;EV I SCD
                                                                                                                                                                                          D I FFEF1ENCE

                                                           ""1:..7

                                                            '""":1	                                                                  ., 621
                              , 621
                        ::to
                                                          3527
                                                                          621                              , 621

                            14,                           '7C'-',	
                                                      . .";I..":
                                                          71:"'"'
                                                                  , 621
                                , 621

                                                          ":',J"',.	
                                                          '"'''-J''.
                                                               t: -. /	
                                                                     ­                                                              , 621
                                      621

                                                                                                                         :5 ,            t..                             i , 621
                       $:0
            0:-,                                          3527
                                                                         621
                                 621

                           14,	                           '7C""'-"
                                                       -:ll-.                                                        $5                 621
                    :;:5      , 6::0:1

                                                                                                                     $5 \ 621
                                              621
                        $:0
                                                     . 3527                                                          :;:5 , 621

                                                        3527                                                                                                                621

                                                                                                                   :$:5 , 621
                                           , 621

           c:o
                          1.4	                             o. 6673
                                                         .':I,.                                                      :t' 0:
                                                                                                                                              4.l                        , 773

           -.W	                                     . 3527     857               o.
                                                                                                                                                                                                   848

           0:0	                                                                         Lj,
                                                                                                                   :$-:5               62 :i                             '; c) 1 8
        :$:3   , 603

                                              .L                                                                   .:I.e::                - ""' 0
                                                        ""C--'
                                                                                                                                                                   r:
                                                                                                                                                                            ''R
                                                                                                                                                                                :"'"i
                                                                                                                                                                                 'L..
                                                        ":I
           61.
                                              .L
                                                                                                                  :.::5               621
                  $5 .::/2:l
                                                       3527"
           6""1                                        352:7
                                                                                                                                 , 621
                     $5 t;.21
                         1.4
                                                                                                                                      621
                      ::::i      fj::
                                                               J4. 	                                               :t.r::                                       :-r...     L..
                                                            r::,,.""                                                                                                              t:.
                                     111_                                        1 " :=.
                                                                                       ;5 	                       re:J L.'
                                                                                                                       '                        '-f
                                                          "1:'''-''	
                                                             i":
                                                                                                                 -i:'                                       :::6          4::                    U:822 )
                                                                                                                 $:5 , 62 j                                     :=; t,.                             :to
                        lit                           3527	
                                                       --c:,...	                                                               , 62 
                                    , /;:,21
                                                        ''1..:" I	
                                                      "7c:"'-r                                                         621

                                                                                                                 :1'::; ,                                   :::5 '       I 6:' 1

                        1.4,         .L-.    .L         J.. i                          6677	                     re:: .'-":
                                                                                                                -t.    !. ,. .I.
                                                                                                                             i
                            :f2 \ 77::                     :'12     848

                                             .L                                                                 .re:   L'",'
                                                                                                                -Fo- , u..;.-.
                            ..1- t::-      t..      , .J
          7c)                                              c:....	                                                                                         ..t'...'

          71.
                                                                                                                :t5 621
                                                        21.
                $C)
                        1 .	
                                                                                                                .re= L",,'j                                :.t5
          "7,           ,11	
                                                     3527
                                                      $5                       :21               $:5 , 6:21

                                                                                                                                                                          tJ:: 1


                                                     '7 C:.. -,.
                                                      '''--..1
                                                                                                                                     :$:0
                       iLl                           -rC-"-7                                                    $5                621
                     :t:5. 621

                                                                               c).     98()9	                                     621
                                   076

                                                    3527
                                                                                                  $4                                     54.
                                                                                                                $:5 , 621
                                               62::,
                     ;!:O
                                                    3527                                                       $5 , 621
                                                 621

                                                    3527                                                       $5 , 621
                                     , t)21

                                                    '7c:-',
                                                                                                               $5 , 621
                                  $5 , 621

                                                   3527                               8592                         , 621
                                                570

                                                   3527                                                                                                                                           051
                                                                                                                  , 621
                                  $5 , 621

                                            1 .    3527                                                        $5 , 621
                                                 621

                                                   3527                                                        $5 , 621
                                  $5 , 621

                                                   3527                                                        $5 , 621
                                                 621

                                                   3527
                              4857 DENY 

                                                                                                                  , 621
                                           , 018
                                                   3527                                                                                                                                          , 603

                                                                                                                               621
                                      621

                                                   3527
                                                                  , 621
                          $5 , 621

                                                   3527                                                                   , 621
                             , 621

                       record
                       record

                                                  3527                                                            , 621
                                  $5 , 621

                                                   -:1:''-,
                                                                                                               $5 , 621
                                  $:5 , 621

                                                   ":'--":1	                                                   $5 , 621
                                  :t5 621

------------ ---------------------------------------
          '".                 '../
                           '.....
                               ",:,      . ".,,,
                                             ":' ':' - ------- =:
                                                   '''''
                                                 ........
                                                  '''..
                                                     '-."'
                                                        ":'''    ---. -----. ---
                                                               - --.-          $()--                      "'    ::--::'":' ,,:"!
                                                                                                                ":j-'=
                                                                                                                ...-+'        .,'    .:. -"": -:          ... '




REVIEW OF DRG 14 - REGION 


 HaSP. CASE OR I G CaRR.                      ORIG                     CORR.            ACTUAL                 F;E ,! I SEl)
        NO. DRG DRG                                 liJT .                l'-T.   ROR                                            P;'y'             DIFFERENCE

                                                   3527                                     :$=5 , 621
               $:5 , 621

                                                   3527                                     $5 , 621
                 $:5             621

                                                   -:':'..o&
                                                          t: .. -,
                                                                                                 , 621
                               621

                                                  3527                                           , 621
              $5 , 621

                                                        c:''''
                                                                                                      621
            $5              621

                    14.                           3527                                        , 621
                             , 621

                                                  "'1:-'­
                                                                                              , 621.
                $:5             621

         100                                      3527                                     $5 , 621

         101                                            1:""'7
                                                                                                                       5 , 621

                    1.4
        102                                                                                          621
            :$:5 621.
                                                 3527                                              , 621
                            621

        103         1 ..

                                                 3527

                                                                                                                     $:5


        104                                            C"I"
                                                                                           :$-=5 'J t,                   5 , 621

                                                     I...a
                                                                                                     6"".'

                                                                                                       L..L          -:r=: L,"'j
                                                                                                                     -t--     /... J.
        105                                                     I"-,
                                                                                          $5 , 621

        106                                      ""C"'"",'                                                           $5 , ,              2: 1
             $:0
                                                  ':'w.L./                                           L'";
                                                                                          -J' .. IJw..:".1
                 : , l.. ''. .L
        107                                           c:r:'i
                                                                                          :$:5 , 621

                                                                                                                                                           ;$:O

        108                                         C'''J                                                         ;1:5           , 621

                                                 -..\.L.                                  :t:5 o; 621.
        109                                     -:!"C:"""7
                                                                                                                  ::;:5       : 621.

                                                   '1'''''
        110                                                                                         621
          $:=5              6;::t

                                                3527                                                621
         :'1;5              6:i21.

                                                ""I: '"'''

                                                                                                    621
         :t5 , 621

          1. ":'   1.4                         3527
                                                621,
              621

                                               3527                                                 621
         $5 , 621

        114                                    -:C".--,
                                               ":r..-L
                                                                                         $5 Ij
        115                                                  ?-:1
                                                                                                                             , 621

                                                                                         $:5        i:.                      , 621                         :1,

                   14,                         3527                                      :t-5       621
                            C:i21.
        117                         .L
                                               ""t:""""
                                               ";'w..::'l                                $:5 621.
                                                                                                                :1;

          10                'j c:                                                                               $5                  t:. 21.               :$:0
          .LW               .L..              3527                     CIW,- '              , 621
                                  773            $2 a; 84.
        11 S:'                                ..c:.­                                     .1"r:"     i..
                                                                                         -F..       \.J.&..                       "
                                                                                                                                 t:,   .- 1

        120                                   7E:..-,
                                                 ;":l                                   :.t5 ,
                                                                                                                            'J

        121                 . I:                                                                    6:2 1
      $:5                    2J.
                            1..               -:C".- ­

                                                                       6673
                621

        122                                                                                                     :,f,2:                             $2 , 848

                                              3527                                          621
                :t=i , 621

        123                         .L        3527                                      $:5 621

        124                                        t:....
                                                      $:5


        125                                  -: J:""-"                                      621
                $5               621

                   1.4                          J":I                                    $:5 , 621
                               621

        126                                  3527                                                 , 621

                                                                                                                $5


        127                                                                                                     $5 , 621

                                         . 3527                                                   , 621
                         621

        128                             3527                                                621

        129                                                                                                     $5 , 621

                                    1 . 3527                                            $5, 621
                $5 , 621

        130                             3527
                                                     , 621

        131                                                                                                        , 621

                                        3527                                                      , 621
                      621

       132                              3527                                                      , 621
          , 621

                                        3527                                                      , 621
       $5 , 621

       134                             3527                                                        621

       135                                                                                                        , 621

                                        3527                                                      , 621
          , 621

       136                             3527
       137                             3527
                                                                                                   621
        $5, 621

       138                                                                                         621
                      621

                                       3527                                             $5 , 621
                          , 621

---------' ,	 ----- ....---- --- - ----------.--.
                                   .!.. '
                             " .:-:,(
                                 :.         ;).   ------------ ----
                                                     ' " '''.
                                                  ':...&:'      $"" -,.,------.--..
                                                               $"'
                                                               $""
                                                                "            $'"    ---------------
                                                                                     ,..
                                                                                     "'.
                                                                                     --.,
                                                                                    ,""      $(j
                                                                                            $() ;$'
                                                                                                -.      ,"".
                                                                                                         '.."'
                                                                                                 . . .. ..,               ""...."
                                                                                                                              .  --,': .,\...
                                                                                                                              ' ,..        :..;"-
                                                                                                                                             \..
                                                                                                                                               :'" ''..          j:-" ""''   ,




REVIEW OF DRG 14 - REGION 


 HOSP.   CASE ORIG         CORF: .              ORIG                    COF.:F( .           ACTUP,L.                     REV I SED
            ND. DF          DRG                      WT.                  v.. I .   ERROR       F'PI\"                      PAY                                 DIFFERENCE

          139        14,            3527
     1 .
                                                                                                     621
                       $0:-	
          140                                                                                                                                      621                              :f:O
                                    3527      1 ..                                                   621
                                   , 621

          141                 12 1. 3527 1 . 1136 DENY / *                                     ::-t: 621

          142                127 1. 3527 1 . 0408                                                                                               627
                             $994­

                                                                                               $5 , 621
                                        7,.!:
                                                                                                                                                 r":..                            296

          143                                 1 . 3527                                            , 621

          144                                                                                                                              , 621

                                          1 . 3527                                             $5 , 621

          145                             1 . 3527
                                                                                                                                              621

          146                                                                                  $5            621
                             621

                                          1 . 3527	                                            $5 , 621
                                      621

          147                             1 M        3527
                                     $5 , 621

          148                             1 . 3527
                                                                                                                                              621

          149                                                                                 $5            621
                              621

                                          1 ..    3527                                        $5 , 621
                      $5 , 621

          150      1 Lj	                          3527
          151
                                          1 .
                                                                                                            621
             $:5	 '-''.1
                                          1 .     3527                                        :f:5 , 621
                    :t5
          152                             1 . 3527	
                                                                                                                                              6:Z


          153                                                                                        6"...1

                                                                                                          1
                ::t5	             t.21
                                          1 . 3527	                                           :;:::; , 62:1

          154                             1 . 3527	
                                                                                                                             .ot"'                                                 :to
                                                                                              :f5      L,.
                                                                                                      W":.,

          155                             1. 3527'                                            :tt:
                                                                                              -r"                  .1.
                                                                                                                            -I.
                                                                                                                             :t.	             i.
                                                                                                                                                      1:_ .1,

                                                                                                                                                   I.L.
          156 no r-ecm-
         157	                                     3527
                                      $:5 621
                       :!-r::

         158                              .f ",r:,.

                                                                                                                           -r.  621

                                                                                                                                  ,-! 1
                                          1. . .	
         159                                                                                      621

                                                                                                    ..J                         6::1
                                         1 " . 5:-	                                          $:5	 621
                     $1:	 621

         16C       14.                   of ""C:
                                                                        812:3                                                               375
                                 246

          c; ..                          1 .. . 3527                                         :=)5           O"'.            :t.e;	          621
                                  :tC

         16:2               421 1. r. 35::"                         () Co ti(:,      -J.     :'1:5          621.

                                                                                                                           -1"

                                                                                                                                               ) 12

         163                             1. . 3527
                                                                                                                           $2 	                                                  1 017'

         16.      1 ..

                                                                                             :=j5          621
           :tt:	 621
                                              :to
                  J. ..                  1. . 35::"	                                         :f5 , 621
                   .:1:-1::
                                                                                                                          -1-_     , '-1"'..

         165      1 .

                                         1 r.   35:?7	                                       $1:
                         -i-
                                                                                              'o  II'''.i
                                 L-         ,- 1

                                                                                                                                                     L...
         16,                             1 " 3:-;27	                                                                             r:
                                                                                              'o  621.
                    ;t.
                                                                                                                          001-"
         167                             1. . 3527                                                         621
           :t.t:'	
                                                                                                                                 ",.1 , 4.­

         168                                                                                                                               6:21
                                         1 n 3527                                                          621

         169                            i . 3527"
                                                                                                                                           621

         170                                                                                              , 621
                          621.

                                                3527                                         $.:5          621
               621

         171      14-                   1 .     3527

         172                                                                                                621.
             621

                                                3527                                                      , 621
         $5 , 621

         173                            1 . 3527	                                           $5 , 621

         174                                                                                                                  621

                                    35271 .
                                                                                                           621
          $5, 621

         175                        3527

         176                 15 1. 3527
                                        1 .
                                                                                            $5 , 621
                    $5, 621

                                           6673                                             $5 , 621
                                    773
                                    848

         177                    1 . 3527                                                       , 621

         178                                                                                                                , 621

                                    3527                                                       , 621
                       , 621

         179                        3527                                                                  621

         180
                                        1 .
                                                                                                                         $5 , 621

                                    35271 .
                                                                                                          621
               621

         181                    1 . 3527	                                                   $5 , 621

         182                 15 1. 3527 O. 6673                                                                          $5, 621

         183                                                                                $5, 621
                     $2 , 773
                              $2, 848

                                    35271 .
                                                                                            $5 , 621
                                   621

         184                    1. .3527	                                                                 621
                       , 621

------------------- --------- --------------- ---- ------- ---------
                                               ------.--------        - ----
                                                                  --------     --- ---
                                                                           --. --- -----

REVIEW OF DRG 14 - REGION         I X





 HOSP. CASE OR I G CORR.      OF:IG         CORR.           i:;CTUAL
          NO. DRG DRG                                                      REVISED
                                  l'JT .     WI.    ERROR     F' (; \(         PI\'      D I FFTRENCE

         185                1 .   3527                           , 621      :::5 , 621
         186                1 . 3527                          $5 , 621
         187                                                                $5 , 621
                            1 .   3527                               621         621
         188                1 .   3527                               621    $5 , 621
                                           TOTAL:           039 904 $979 813 $60 092
---------
---------------------------------------------- -------------------
                                   ':'..":.
                                    .-:--.":    -- -               -------
                                                            --------------
                                                                      $(;
                                                                        ----         --- - ...
                                                                                            -




REVIEW OF DRG 14 - REGION 



           CASE   ORIS COF.:F. OF:IG.          CORRECT           ICT!.JAL                F;EI.! ISED
  HOSP.     NO.   DRG    DF,S   WE I GI'.I1'    WE I GHT EFmDR            A\/                        P(iY        D I FFEF.:ENCE

                                    "'t:-,­
                                                                               650             :1"
                                                                                                           650
                         430       3527            0934          $:; , 650                                 183
                                                                                                                       =*:0

                                   3527                                                                               467
HOSPITAL                                                         $:7 , 650                     $7          650         $:0
                                   3527                                        650         $7 , 650
 BLENDED                           3527
  RATE                                                                         650         $7 , 650
                                   3527                                        650         $7 , 650
                                   3527                          $:7 , 650                 $:7 , 650
$5655.                             7t:1"""
                                                                    , 65c)                 $7 , 650
                                   3527                          :t:7          650            , 650                    $:(1

                                               TOTAL.              8 , 85t)                                383
                                                                                       :$:t)          IJ             467
--------
--- --- ------.      '".
                    ':.
                     --.-- --..- _.   -.-- --     ---'-""-'
                                                      ..  .:.-...
                                                          ,,,     -'''..-:.
                                                             ";'..":/
                                                         '''":'--"'
                                                                '..":. .._--    ,,'
                                                                          / .-.. ..--.- - ------'*, -    ------ ----
                                                                                                        .....- ----
                                                                                                                 .'  ------------------
                                                                                                                     --_..
                                                                                                                      $(-, 'j(",y
                                                                                                                :$' p(::           -...--.- ------.
                                                                                                                                     ';' ---.--.
                                                                                                                              - -_. -_.   ';         -.---.
                                                                                                                                                 -'-,".         --_...:$:_.. -.




REVIEW OF DRG 14 - REGION                                  I X





           CASE            ORIS         -. Ii ::. t:'
                                        '.1.'"'.,\,,             IG             CDRR.                        (,CTUi::L              E\/           SED
 HOSP.     NO.             DF(G            DF::8              'Ji"               'JT"               Of':                                                       D I FFEnENCE


                                                                1:"'7
                                                                                                                       073                073
                                                                                                                                          $6

                                                                                                                       073                073
                                                               'J..,
                                                             -: 1:"" "7
                                                                                                                       073            $6, 073
HOSPITAL                                                     -:t:"1 ""

                                                              :'...a                                                   073                     6 , 073
BLENDED                                                     3527
  RATE
                                                                                                                      , 073           :$:6          073
                                                          . 3527                                                       073                          073
                                                            3527                                                      , 073                         073                            :$0
4489.                                         1 c:          3527                6673                                   073            ;$:2:         996                           077
                               1 LI                         3527                                                       073                          073
                                                            -:c="I­
                                                            7t: ,...-
                                                                                                                       073            $6 ,          OTS
                                                                .L i
                                                  073            $:6 f)7.
              .a.              1.4                          3527                                              :=t:6    ()73           $6 , 07
                                                            ""1:"'-'
                                          ::-44                           I)"                                 $:6 073                 :1- --       /1 -'. -"
                                                                                                                                                   -rt.J..            :f2 ! 611
                                                            :;527                                             $:6 , OT:'                       6 ! 07'                             :$:0
                                                            ""1:""''
                                                               J''.
                                                                                                              :;J6 073                :$:6        , i)73
                                                            -=C:,""
                                                             ."-1. 1:'.                                       :$:6 ? 073              :$:6        , (J7:3                          ::t()
                                                            3527                                                       073                          !)73
                                                                                                                      , C73          :$:6         , 0"7::


                                                                          TCJ   r AI..                      1 t)9 , 31 ()          1 ()3           62:                            688
--------
--------------------------------- ------------ ---- -- ------ --- ----. -------

REVIEW OF DRG 14 - REGION 



            CASE ORIG   COF F, .   OF\! G.       COF,F: .
 HOSP.       NO. DRG     DRG         l'-T.        WT.       EF,F:OR
                                                                      .ciCTU(.iL
                                                                         FIiY
                                                                                   F,E' ' I S::D
                                                                                                   D I FFEF,ENCE



                                    1 .   3527                              651           651
  HOSP
BLENDED
  RATE

$2698. 89

                                                 TOTAL:                    651.          651               $i)
--------
----------------- ---- ----- ------- ------------ ----
                                      ":'-.,,,                       ---
                                                                       :$::::-- ----  --- -..---
                                                                                              ':"
                                                                                          ;$-="""
                                                                                              """",'-- -----------
                                                                                          ---- -------
                                                                                               -"" ":'     -------
                                                                                                               $()
                                                                                                                ..' _.- -.-




REVIEW OF DRG 14 - REGION 



           CASE   ORIEi CORR.        ORIG          COF                     CTLJf:iL        RE' /
 HOSP.      NO.   DRG                 r.            WT.     ERF-:Of:;'          A\/
                                                                                                         I SET.)
                                                                                                         P,y          D I FFEF\ENCE

                                     "'s:
                                                                                 767           ,.L­
                                                                                                          7t,                        ::o
                                     3527                                :$:3    767                      767                        :$:0
                                     71:-'''
                                     ':1""": /                                   767                      767
HOSPITAL                             3527                                        767
BLENDED
                                1.
                                                                                              $::5        767                        :$:0
                                     3527            7279                        767                      027                 $1   740
  RATE                               3527                                        767           ;1'
                                                                                                          7t.:,
                                     ""t:-.-         4857
                                        J..,.                            $:3     767                      ""  r: -,
                                                                                                                                   41'1,
2784. 75                             3527                                        767
                                                                                                 ; 1.     ....-J '

                                                                                                          767
                                     ":I-- ,.-r                                  767                      767


                                                  TOTAL:             $-=33 ., S)()2           2 S:' , 7 i:jf:                 $:4 , 154
--------
--------------------------
         ".,, ,....&
              .:-          ---
                            ..,,,           \.,'" -------
                              ':/:',-,/ -----.
                             ,...                 '       - ----------------------------
                                         .......... ,''...:         -.----------
                                                                   -:.-,
                                                                   ,-"
                                                                ..:.. -,'$""
                                                                           "' ,        "":------
                                                                                 -'--.-:$:,
                                                                                     '-"..   $()                     -'---''' '"''
                                                                                                                         ..:. . -----
                                                                                                                                   , "' ,. \...
                                                                                                                                        "";,
                                                                                                                                           ,              .;'
                                                                                                                                                          -+'$:"q
                                                                                                                                                           """'         ./         /:...
                                                                                                                                                                                   --.                     :$:()
                                                                                                                                                                                                           ";-
                                                                                                                                                                                                           """ "',




REVIEW OF DRG 14 - REGION 


             CASE ORIG.       CORR.                OF: I r:.                         CDRR.                                 ACTUP,L.                                  '' I SED
 HOSP.        NO.  DF:G         Dr:.r:
                                 ,\W                                                            cr;,r.",:::,
                                                                                                1-1 \' ' . \--1 ;,                       (2: \.                                            I FFEF ENCE

                                                               c:.
                                                              '0-",.                                                                         Di''''J                    c:.,:-,c
                                                                                                                                "f"                                      .. -- :"h                           :$:0
                                                         338(J                                                                  :f:Lj.      92t:.                       0"",
                                                                                                                                                                                                             :$:0
                                              J,        3527                                                                    :'14        978                         978
HOSP I TAL                                              3386
BLENDED
                                                                                                                                            926                         926
                                130                     3527                           964,                                     :1:4        978             :$:3        54.                               429
  RATE                                                  3527                                                                             , 978             j:4 978
                                                        3527                                                                   :;:4         978                         978
3679.                  record
                                                        386                                                                    :t4 926
                                                       3527                           6673                                           978                       455                                       523
                                                       3386                           6604                                           926                       430
                                                                                                                                                           ::"1:2                                        496
               1 '?
                               . 3527                             6673                                     :$=4 ,978                   j:2 455                            $2 'i 523
                        14,                           3527                                                                     $=4 , 978                   :f4 978
                                                      338ti                                                                    :$=4 0,.            C;,     ::t4        92.                                  :$:0
                                                      ""t:""'7
                                                       '-1.:..                                                                 $4'         '7'            :.t.q.       978
                       14-                            35::7                                                                    $:4                         :*:4        e'7C                                 ::1:0
                                                      3527                                                                       " -" Ij 97C                           97fJ                                 :f,
                                                                                                                                                                                                            -1"
                                                      352                                                                      :::LL       CI""C"
                                                                                                                                            I I 
          :t. /-'     C,;'"7::'
                                                                                                                                                                                                            ::1:0
                                                      ;rC=""
                                                      .;....L .                                                                $'4        978                :4.
                                                                                                                                                                       O""CJ
                                                                                                                                                                       1/
              2c)                                     352:                                                                     $:4          CI"7
                                                                                                                                         'J .             :lLf.        a..c.c.'                             :t,
                                                     ""t=                            Ll.""          ,ii,                    :$:4          978                 ''.. 'i 455
                                                                                                                                                           :1"'                                          c--...
                                                                                                                                                                                                    'i --":.
                                                     ""t:I'"\";                      Li., 7-:
                                                     ";1
                                                     "'c-­
                                                                                                    -1'                                  , 978            :.1::2 455                         .:1'
                                                                                                                                                                                                    'J
                                                     ":-1": /                                                               :t.:.q.       978              ;1 /!
                                                                                                                                                                      978
                                                     35:2:7                                                                 $4 j 978                      :$:4
              ,,0:
              ":-1                       .L          352:                                                                   $=4 j         978             :$: LI.     978                                  :'1:0
                                                    "'C'.--,
                       1 Lj                                                   ' II   6673                                    :t'
                                                                                                                            -I' "   -r    CJ7a
                                                                                                                                             L...                                            :f'
                                                                                                                                                                                            -f'
                                                                                                                                                                                                         c=-'-:"
                                                                                                                                                                                                         -I":.":
                                                    ""1:'"7
                                                     I....:. "                                                                            q-'c,
                                                                                                                                          I"  L.'                     97E
                                                    352"                                                                         4 , 978                              978
             27'                                    3527"                            7839                                                 978
                              395        .1                                                                                 :$: LT
                                                                                                                                                                     , 885                  :t'
                                                                                                                                                                                            -f"          093
                                                    352'                                                                                  978                         OiC,
                                                                                                                                                                      i ,. I                               :::0
                                                   3527                                                                    $4             978                         978
                                              . 3527                                                                       :$=4           97E1                        978
                                                   3527                                                                                  978                          978
                                                   -:t:"?..
             "'C'
                                                     \oJ..                                                                               978             $4 j 978
               '-I                                  ":-1": /

                                                                                                                                         978              -:4 ,       978
                                                   3527                                                                                  978                          978                                 :::0
                                              . 3527                                                                                     978                        , 978
                                                   -: c: -, -.
                                                   '':I
                                                                                                                          $4 , 978                                   978
                                              . 3527                                                                      $4 , 978                                   978
                                                   3527                                                                    $4, , 978                                 978
                                                   3527                                                                                  978                         978
                                              . 3527                                                                      $4 , 978                                   978
             4 -:                                  -: C"
                                                                                                                          $4             978             $4 , 978
                                                   3527                                                                   $4             978             :::4        978                                  $;0
                                                   3527                                                                   $4 , 978                                   978

                                                                            TOTAL                                $218 760 $200 129                                                         $18 631
-----------------------------------------------------------------------
--------



REVIEW OF DRG 14 - REGION 


HOSPITAL    CASE-   ORIGINAL   CORRECT OR I G I NAL   CORRECT    ERROR   ACTUAL
           NUMBER      DRG       DRG WE I GHT         WE I GHT           PAYMENT




HOSPITAL            THIS HOSPITAL HAD A SAMPLE SIZE OF "
BLENDED
  RATE
       -------------------------------------------------------
       --------                                        '-.":      ----. -------------
                                                      --.----------.------.-.-.---
                                                                  $':              -----
                                                                                     $!)
       - -                  '-'   :.::
                                                                                                                           ",'
                                                                                                                           ""'    ., ,.          --




          ! I HJ OF DF    1 "-1 --   REG I m   I;r;


                  CASE OFiI G.       COF:F                         COF ECT                            P1CTUAL F\E / I SED
                                                                                               r:,
        HOSF.      . w.               DnG         W.,'I..              l.\ 'T.           e",
                                                                                      ;\.1'\1.11\
                                                                                    E 1:-,                                                      D I r=:-EF:ENCE


                             14,               1 .    3527                                                     676                 676
                                      299      1 . 3527              O. 9407                          :!:4     676         $3, 252                    $1 , 424
                                               1 .    3527                                               , 676                     676
       HOSPITAL                                1 . 3527                                               $4 , 676             $4 , 676
       BLENDED                                 1 . 3527                                                        67b                 676
         RATE                                  1 . 3386                                               $4 , 627             :$:4    627
                                               1 .    3527                                                    67b                  676
       3456.                           2()     1 . 3527                      3141                             676          $4, , 54,                     $134
                                               1 . 3386                                                       627                  627
                                               1 .    3527                                                    676          l4, , 67       t:.
                                       1.6     1 .    3527           O. 8592                          i.-II "1l.,LJ "'L
                                                                                                      ::P..                   -:, 0-'(
                                                                                                                                    I '               :$1 , 706
                                               1 . 3527                                               $:4 , 6 7 t.                 67t::.                   :$:0
                                      416      L . '
                                                         C:,"I""     1 . 5504                         :.i:4 67c:;          :1-c:
                                                                                                                             ..J
                                                                                                                                 ""t:':=,
                                                                                                                                   '.. I                (:$:683 )
                             1.4                      3527                                                    676          $4 , &,76                         $:0
                                               1 . 3527                                               $4      676          $ 4, , 67(:;                     :$:0
                                               1 .35:
                                               01 ""C"""''
                                                                                                      $4 , 676             $L1     67'::.
                                               .L . . ":I..o&                                         $1+ ,
                                                                                                                  ?E'
                             j '1
                              . 'T             1. 3527                                                        676                 , h7e.                    :ro
                                               1. . 35::                                                      676                 , 676
                                               1.. 3527                                                       676                  67t,

                                                                   TOTAL                             $93      422 $90              E41.                   581




i I

-------------------------------------------------------------
                                              -.---- -------.-. ..- --.-----------                 "----------


REVIEW OF DRG 14 - REGION             I X





           CASE OR I G COF,R. OF\! G .       CORF:ECT            ACTUAL REV I SED

 HOSF' .    NO. DRG DRG           11JT.        l,)T .   ERROR     PAY                    PAy"      D I FFEF,E:'




           14
           14 17 1 . 3527
           14
           14
                       8392 $3
                  3527 $3   $3

                                1. 3527 0.                * $3         834
                                                                       834
                                                                                  $2
                                                                                  $3
                                                                                     379
                                                                                     834
                                                                                     834
                                                                                                       $1 ,   455


HOSPITAL   14
           14     3527
                  3527 $3
                  3527      $3
                                1 .

                                1 . 

                                                                       834
                                                                       834
                                                                       834
                                                                                  $3

                                                                                  $3

                                                                                  $3
                                                                                     834
                                                                                     834
                                                                                   $3834
                                                                                       I 234
                                1 . 

BLENDED
  RATE            3527 $3
           14 1. 3527
-------- 8 14               $3  1 .                                   , 834
                                                                       834 $3
                                                                                     834
2834.
       10
       12
           14
       11 14 35271 .   6673 $3
                      3527
                    14 15
                  3527 $:3  $3
                               1 .




                               1n
                                      3527               * $3
                                                                       834 $3

                                                                       834 $1 891
                                                                      , 834
                                                                       83L! ;$:3
                                                                                   $3834
                                                                                     834
                                                                                                     $1       943



       14
       15  14
           14
           14
           14
                    14



                 13527
                   . 3527$::
                  3527      $3
                               1 u                                    , 834
                         462 1. 3527 1. 8268 OTHER $3 834 $5 178 ($1 344)
                                                                       834 $3
                                                                                   $3



                                                                                     834
                                                                                     834
       16
       17
       18  14
           14    1 .7     $3
                      35::7 $3
                               1. .
                               1"
                               1 . 35:
                                                                  3,
                                                                       83LJ,

                                                                       834 $3        834                      :to

                  3527     $:3                                                      ,834
                                                                                      S::J;,
                                                                       834



       19
      20   14, 1.                                                      834 :f3
                                                                       834 $3
       21.
       22  14, 1
           14
           14    1.3527
                    .
                         140 3527 O. 7548 * $3
                      3527:$::::
                               1 .                                     834 $2
                                                                      , 83LL , $3    834
                                                                                    , 139
                                                                                     834
                                                                                                       $1 , 695

       23 14                                                     $3 \ 834 $3
                         462 1. 3527 1. 8268 OTHER $3 834 $5 178 ($1 344)

                                             TOTAL              $88    1.84    :$:8=.:     77t:/       $2, 406
                                                 APPENDIX D



TYPES OF ERRORS WHICH AFFECT DRG ASSIGNMENT



physician documentation error in attesting to
principal diagnosis; medical record does not
substantiate diagnosis ( es ); or recording of vague
diagnosis , subj ect to misinterpretation
physician error in documentation of operation(   s) /

procedure ( s )
coding error - principal diagnosis miscoded
coding error - procedure   ( s) miscoded
coding error - additional diagnoses or procedures added
coding error - diagnoses or procedures left off
sequencing error - codes rearranged to change DRG
assignment
rehabilitation issue , billing error , etc.

